APPENDIX A

A

UNITED STATES COURT OF
APPEALS
FOR THE SIXTH CIRCUIT
________________
United States of America,
Plaintiff-Appellee,
No. 19-3236
v.
Dennis A. Smith,
Defendant-Appellant.
Appeal from the United States District
Court for the Northern District of Ohio at
Cleveland. No. 1:18-cr-00370-1 --- John
R. Adams, District Judge.
Decided and Filed: June 5, 2020
Before: BOGGS, GRIFFIN and
READLER, Circuit Judges
__________
COUNSEL
ON BRIEF:
Thomas W. Jakuc, St. Clair Shores,
Michigan, for Appellant.
Matthew B. Kall, UNITED
STATES ATTORNEY OFFICE, Cleveland, Ohio, for
Appellee.
___________
OPINION
____________
CHAD A READLER, Circuit Judge. Dennis Smith
was sentenced to 150 months in prison for distributing a
controlled substance. On appeal, Smith argues that his
sentence was flawed in two respects: one, that the First Step
Act should have been applied to his sentence and two, that
his prior state drug-trafficking conviction was not a predicate
B

offense for purposes of the Sentencing Guidelines. Seeing
no error in the district court’s judgment, we AFFIRM.
BACKGROUND
Dennis Smith was indicted on one count of knowingly
and intentionally distributing a mixture of heroin, fentanyl,
and carfentanil, in violation of 21 U.S.C. §§ 841(a)(1) and
(b)(1)(C). Following the indictment, the government filed a
notice with the district court indicating that Smith was subject
to an increased statutory maximum sentence under §
841(b)(1)(C) due to a prior state felony drug-trafficking
offense. The next day, Smith pleaded guilty. In a Rule 11
plea agreement, Smith waived his right to appeal the
conviction and sentence save for a few enumerated
circumstances. Chief among them, Smith reserve the right to
appeal the determination that he was a career offender.
Consistent with the plea agreement, the Probation
Office, in the Presentence Investigation Report (PSR),
indicated that Smith was a career offender based upon two
prior state felony convictions, one for drug trafficking and
another for five counts of aggravated robbery. Smith
objected to the PSR, claiming that the First Step Act
rendered his § 841 (b)(1)(C) statutory enhancement invalid
and that his state convictions for drug trafficking and robbery
were no longer predicate offenses to determine his careeroffender status. The Probation Office disagreed in both
respects.
Smith asked to withdraw his guilty plea. As grounds
for doing so, he again cited the First Step Act as well as his
contention that his state aggravated-robbery conviction was
not a crime of violence for determining career-offender
status under the Guideline. Smith, however, did not raise his
earlier objection that his state conviction for felony drug
trafficking also was not a predicate offense for determining
career-offender status. At a subsequent hearing, the district
court rejected Smith’s request to withdraw his plea,
disagreeing with both his First Step Act and career-offenderstatus arguments. The district court proceeded to sentence
Smith to a within-Guidelines 150-month sentence. Smith
timely appealed.

C

ANALYSIS
In His Plea Agreement, Smith Waived His Argument
Regarding The First Step Act. ”We review the question of
whether a defendant waived his right to appeal the sentence
and a valid plea agreement de novo.” United States v
McGilvery, 403 F.3d 361, 362 (6th Cir. 2005) (citing United
States v Murdoch, 398 F.3d 491, 496 (6th Cir. 2005)). And
upon that de novo review, we see no reason that Smith’s
waiver of his appeal rights is not valid and binding.
“It is well-settled that a defendant in a criminal case
may waive any right…by means of a plea agreement.”
United States v Calderon, 388 F.3d 197, 199 (6th Cir. 2004)
(quoting United States v Fleming, 239 F.3d 761, 763–64 (6th
Cir. 2001)). To be valid, however, the waiver must be both
knowing and voluntary. “The sine qua non of a valid waiver
is that the defendant entered into the agreement knowingly
and voluntarily.” Fleming, 239 F.3d at 764. There is no
dispute that Smith did so. When Smith pleaded guilty, the
district court carefully explained to him the ramifications of
his waiver of his appeal rights, even pausing at one point to
re-phrase the exceptions to Smith’s waiver so that Smith
could better understand them. At the appropriate times,
Smith indicated during the hearing that he understood and
agreed to the waiver. In these careful circumstances, we
cannot say that Smith actions were not knowing and
voluntary. See Calderon, 388 F.3d at 200 (holding that a
criminal defendant’s waiver of appeal rights through a plea
agreement was knowing and voluntary because the
defendant testified at the plea hearing that he understood
and agreed to its provisions).
Having established that Smith’s waiver was valid, we
turn to breadth of his waiver. As part of his plea, Smith
waived all grounds for appeal save for five specific
instances: 1) his sentence, if he was sentenced above the
agreed-upon statutory maximum, 2) his sentence, if he was
sentenced above the agreed-upon Guideline range, his
career offender status, 4) ineffective counsel, and 5)
prosecutorial abuse. It follows that if the issue Smith raises
today is not one of the five preserved in his plea agreement,
he has waived his right to appeal that issue.
Arguments regarding the First Step Act’s application
to § 841(b)(1)(C) were not among the five issues Smith
D

preserved for appeal. The first was that Smith not being
sentence above the agreed-upon statutory maximum.
He was not--Smith was sentenced to serve 150 months
in prison, well below the agreed-upon statutory
maximum of 360 months. The second was that Smith
not be sentence above the agreed-upon Guideline
range. Here too, his sentence did not exceed the state
limit –- his 150-month sentence fell safely within the
agreed-upon Guideline range of 130 to 162 months. Nor
does Smith’s First Step Act argument satisfy any of the last
three grounds for appeal. His argument does not impact his
career-offender status, nor does it involve allegations of
misconduct by either Smith’s counsel or the government. We
thus see no basis to conclude that Smith tailored plea
agreement preserved for appeal his arguments regarding the
First Step Act. See Calderon, 388 F.3d at 199 (holding that
the defendant waived his right to appeal an issue because
his waiver of his appellate rights was conditioned only on the
fact that he not be sentence above the agreed-upon
statutory maximum and he was not sentence above that
maximum).
To the extent this result strikes one as inequitable, it
is perhaps a slight comfort to know that, even had Smith had
not received his First Step Act challenged to § 841(b)(1)(C),
his argument would fail. We recently held in United States v
Wiseman that while the First Step Act narrowed 21 U.S.C.
§§ 841(b)(1)(A) and (B) by limiting their application to
“serious” drug felonies (as opposed to mere felony drug
offenses), the First Step Act did not modify § 841(b)(1)(C),
the section at issue here.
932 F.3d 411, 417 (6th
Cir. 2019) (rejecting application of First Step Act where the
defendant was convicted under § 841(b)(1)(C), cert. denied,
140 S. Ct. 1237 (2020). Like Wiseman, Smith too was
convicted under § § 841(b)(1)(C). So even if preserved, his
argument is nonetheless foreclosed by precedent. Skyes v
Anderson, , 625 F.3d 294, 319 (6th Cir. 2010) (noting that a
“published prior panel decision” is “controlling authority
unless an inconsistent decision of the United States
Supreme Court requires modification of the decision or this
Court sitting en banc overrules the prior decision”) (citation
omitted).
Smith’s Violation of Ohio Revised Code §
2925.03(A)(2) Is A Controlled Substance Offense Under The
Sentencing Guidelines. Ordinarily, we review whether the
E

district court properly determined that a prior offense
qualifies as a controlled substance offense de novo. United
States v Havis, 927 F.3d 382, 384 (6th Cir. 2019)(en banc)
(per curiam), reconsideration denied, 929 F.3d 317 (6th Cir.
2019). There is some dispute here, however, whether Smith
properly raised this issue below (as if he did not, his
challenge would be subject to plain-error review, see, e.g.,
United States v Simmons, 587 F.3d 348, 355 (6th Cir.
2009)). We need not belabor the point. As in either instance,
his claim fails.
To determine if Smith’s prior state offense qualifies as
a “controlled substance offense” for determining his careeroffender status under the Sentencing Guidelines, U.S.S.G. §
4B1.2(b), we employ what has come to be known as the
“category approach.” Following that approach, we compare
the elements of Smith’s prior state drug-trafficking offense to
the elements of a controlled-substance offense as defined by
§4B1.2(b) of the Guidelines. See United States v. Galloway,
439 F.3d 320, 322 (6th Cir. 2006). If the elements of Smith’s
states offense are narrower than or coterminous with the
definition of a “controlled substance offense” set forth in §
4B1.2(b), the offense qualifies as a predicate for § 4B1.1’s
career-offender enhancement. Id at 322-23.
In employing this categorical approach, we typically
are not permitted to look at the record to determine a
defendant’s actual criminal conduct. Mathis. United States,
136 S. Ct. 2243, 2248-49 (2016). Rather we compare only
the elements of the prior offense to § 4B1.2(b). Id. This
becomes more challenging when the statue underlying the
prior state conviction defines multiple offenses. In the
parlance of the categorical approach, a statue of that ilk is
deemed to be “divisible.” When faced with a divisible statue,
we apply a “modified categorical approach,” which, in more
plain English, means that we review documents such as
indictments and jury instructions (known as Shepherd
documents, see Shepard v. United States, 544 U.S. 13, 16
(2005)) to determine which particular offense the defendant
was convicted of and, in turn, whether that offense qualifies
under § 4B1.2(b). United States v Cavozos, 950 F.3d 329,
335 (6th Cir. 2020) (citing Descamps v. United States, 570
U.S. 254, 257 (2013)).
1.
With these principles in mind, we start by
determining whether this statue Smith was charged with
F

violating -- Ohio Revised Code § 2925.03(A)(2) -- is divisible.
A criminal statute that lists alternative ways an offense may
be committed is divisible if those alternatives constitute
separate offenses, but not if they are simply “alternative
means” of committing the same offense. Cavazos, 950 F.3d
at 335 (citing Mathis, 136 S.Ct. at 2254-56). Section
2925.03(A)(2) prohibits a person from knowingly “prepar[ing]
for shipment, ship[ing], transport[ing], deliver[ing], parpar[ing]
for distribution, or distribut[ing] a controlled substance” when
the person “knows or has reasonable cause to believe that
the controlled substance. . . is intended for sale or resale by
the [person] or another person.” Given the alternative ways
in which the statue may be violated (e.g., “ship[ing],
transport[ing], deliver[ing]”), we must determine whether
these many alternatives constitute separate offenses or
instead are different means of committing the same drugtrafficking offense.
In determining whether § 2925.03(A)(2) lists
alternative offenses or alternative means, our first stop is the
Ohio courts. For if the state courts “definitely answer whether
a statue is divisible, we need only follow what they say.”
Cavazos, 950 F.3d at 335 (quoting Mathis, 136 S. Ct. at
2256)(internal quotation marks and brackets omitted). But
that inquiry leaves the question arguably unanswered. Smith
cites no Ohio decision that speaks to the divisibility of §
2925.03(A)(2). We know that a sister circuit has read a
decision from the Ohio Supreme Court to suggest that§
2925.03(A)(2) is indivisible. See United States v Walker,
858 F.3d 196, 200 n.3 (4th Cir. 2017). Walker cites State v.
Cabrales, 886 N.E.2d 181, 189 (Ohio 2008), for the
proposition that § 2925.03(A)(2) appears to list “various
means” in which a drug trafficking offense can occur,
meaning the “statue is not divisible.” 858 F.3d at 200 n.3.
Walker notwithstanding, one might fairly debate
whether Cabrales definitely settles the issue. But application
of other interpretive tools identified in Mathis leads to the
same conclusion. In the absence of a definitive state court
decisions regarding divisibility, we look at the statue
ourselves. See Mathis, 136 S. Ct. at 2256. If a statue on his
face resolves the question, our work is relatively easy. A
statue, for example, may provide different penalties
depending upon which statutory alternative a defendant
violates. That type of statutory language is a stronger
indicator the alternatives constitute different offenses,
G

meaning the statue is divisible. Id. (citing Apprendi v New
Jersey, 530 U.S. 466, 490 (2000)). On the other hand, where
a statute merely gives “illustrative examples” of how an
offense may be committed, we deem the statute indivisible
because the provisions are “alternative means” of
committing a single offense. Id. (citations omitted). And of
the state legislature seeks to make a courts interpretive task
even simpler, it may explicitly distinguish between the
elements and means of each offense-- that is, between what
is required for a conviction and the different ways an offense
may be committed. Id. (Citation omitted).
Utilizing these tools, we conclude, as did Walker, that
§ 2925.03(A)(2) is not divisible. While the statue neither
specifies the listed alternatives as “illustrative examples” of
how they offense may be committed nor explicitly identifies
those alternatives as elements or means, § 2925.03’s
penalty provisions shed light on the indivisibility question. A
violation of r§ 2925.03(A)(2) renders one guilty of violating
some subsection of § 2925.03(C). Section (C), in turn, lays
out the various felony levels and penalties for violating
section (A)(2). In so doing, § 2925.03(C) makes no
distinction based upon which statutory alternative in §
2925.03(A)(2) a defendant employees in committing the
trafficking offense. Instead, § 2925.03(C) sets a felony level
and penalty based upon a variety of factors, including the
amount and type of drugs involved and whether the drug
trafficking occurred in the vicinity of a juvenile or a school.
The penalty for violating § 2925.03(A)(2), in other words,
does not differ based upon whether the defendant prepared
to ship, shipped, transported, delivered, prepared to
distribute, or distributed a control substance, a firm indicator
the statute defines a single offense.
To the extent there is any remaining ambiguity as to §
2925.03(A)(2)’s indivisibility, a “peek“ at the record of Smith’s
prior conviction confirms that conclusion. Mathis, 136 S. Ct.
at 2256 (citation omitted). If an indictment simply
reiterate[es] all the terms” of the statue, “[t]hat is as clear an
indication as any that each alternative is only a possible
means of commission.” Id at 2257. Here, the record speaks
clearly. Smith’s indictment charges him with “knowingly
prepar[ing] for shipment, ship[ing], transport[ing], deliver[ing],
prepar[ing] for distribution or distribut[ing]” controlled
substances. The indictment in other words, simply
“reiterat[es] all terms of the statue--a clear indication,
H

following
Mathis,
that preparing to ship, shipping,
transporting, delivering, preparing for distribution or
distributing are each “alternative means” of committing the
same offense, not alternative offenses. Adding all of these
hints together, we conclude that § 2925.03(A)(2) amounts to
an indivisible statute.
2.
Having concluded that § 2925.03(A)(2) is
indivisible, we apply the categorical approach, and thus
compare the statue’s elements to offenses found in
§4B1.2(b). Galloway, 439 F.3d at 322. Turning to those
elements, § 2925.03(A)(2) has three: the offender 1)
“knowingly” 2) “prepare[s] for shipment, ship[s], transport[s],
deliver[s], prepare[s] for distribution or distribute[s]” a control
substance, and (3) “knows or has reasonable cause to
believe that the controlled substance or a controlled
substance analog is intended for sale or resale by the
offender or another person.” See State v. Williams, 664
N.E.2d 576, 580 (Ohio Ct. App. 1995)
In view of these three elements, § 2925.03(A)(2) falls
safely within the Guideline’s contours. The first element
confirms that the all offender’s conduct must be knowing.
The second and third elements confirm that the conduct at
issue is either possession with intent to distribute or
distribution. And the third element acts as a safeguard by
ensuring that mere possession is not prohibited by the
statute. As the language there instructs, the offender must
have some degree of knowledge that either he or someone
whom possession is transferred to will sell the drug.
In reaching this conclusion, we do not write on a blank
slate. The Ohio Supreme Court has held that a violation of §
2925.03(A)(2) -- by whatever means-- inherently involves
possession of a controlled substance. Cabrales, 886 N.E.2d
at 188. Consistent with this reading, in United States v
Wright, we read the alternatives in § 2925.03(A)(2) to
constitute conduct that is “no less than possession of a
controlled substance with an intent to distribute it.” 43 F.
App’x 848, 853 (6th Cir. 2002). Thus, the possession-withintent-to-distribute offense falls safely within the confines of §
4B.2(b), which defines a “controlled substance offense” as,
among other things, “possession of a controlled substance
(or a counterfeit substance) with intent to manufacture,
import, export, distribute, or dispense.” See also United
States v. Robinson, 333 F.App’x 33, 36 (6th Cir. 2009) (citing
I

Wright for the proposition that § 2925.03(A)(2) describes a
possession-with-intent-to-distribute offense).
Smith sees things differently. To his mind, the
knowledge aspect of § 2925.03(A)(2)’s third element pushes
its scope beyond § 4B1.2(b)’s parameters. The third element
contains a component that the offer “know” or have
“reasonable cause to believe” that the drug is “intended” for
sale or resale. Smith contends that the “reasonable cause to
believe” provision falls outside § 4B1.2(b)’s possession-withintent-to-distribute requirement, which Smith contends has
an actual-knowledge element. But there are at least two
flaws with this argument. First, even assuming for purposes
of argument that § 4B1.2(b) requires actual knowledge, §
2925.03(A)(2) passes muster. Federal and Ohio courts have
consistently held that “reasonable cause to believe” is a type
of actual knowledge, sufficient for criminal intent. See, e.g.,
United States v Sdoulam, 398 F.3d 981, 987–88 (8th Cir.
2005)(holding “reasonable cause to believe” sufficed for
“specific intent” required to convict of conspiracy); United
States v Saffo, 227 F.3d 1260, 1268-69 (10th Cir. 2000)
(holding the “know or have reasonable cause to believe”
standard sufficed for “guilty mind” or “guilty knowledge”
requirement for imposing criminal liability, and was “akin to
actual knowledge”); United States v Green, 779 F.2d 1313,
1318-19 (7th Cir. 1985)(rejecting the argument that “knowing
or having reasonable cause to believe” sets up a standard of
negligence or recklessness different from knowledge); State
v. Miller, No. 82CA24, 1984 WL 4270, at 2-3 (Ohio Ct. App.
Mar. 6, 1984)(“having reasonable cause to believe” is a
“refinement on the knowledge state of culpability” in state
law, and is therefore a type of intent).
Likewise, a person who knowingly prepares to ship,
ships, transports, delivers, prepares for distribution or
distributes to another person, must, by definition, knowingly
possess the drug with an intent to distribute it. That the
offender must also know or have reasonable cause to
believe the drug is intended for sale or resale does not in
any way undermine the fact that the offender has already
both possessed a drug with an intent to distribute and
transmitted the drug to the recipient. See United States v
Miles, 266 F. App’x 534, 536 (9th Cir. 2008)(“The ‘reasonable
cause to believe’ language from [§ 2925.03(A)(2)] only
relates to the defendant’s knowledge of the third-party’s
intent to sell . . . and does not impermissibly lower the
J

standard of intent necessary for conviction to ship, transport,
deliver, etc.”). In the situation where the offender prepares to
ship, ships, transports, delivers, prepares for distribution, or
distributes with knowledge that he intends to sell the drug
himself, even Smith does not contest that this contact
qualifies as possession with intent to distribute. See Id. at
536 (explaining that § 2925.03(A)(2) criminalizes “mere”
transport only when the offender also had knowledge that
the drug is intended for sale); see also State v. Gates, No.
78120, 2001 WL 534163, at *11 (Ohio Ct. App. May 17,
2001) (holding that the “reasonable cause to believe”
language does not apply to the offender’s knowledge of his
own intention). In sum, in all situations prohibited by §
2925.03(A)(2), the offender knowingly possesses a drug with
the intent to distribute it.
Equally compelling is the alternative reasoning
developed by our sister circuits: that § 2925.03(A)(2)
describes distribution of controlled substances, one of the
other enumerated control-substance offenses that serves as
the basis for an enhancement under § 4B1.2(b). See
Walker, 858 F.3d at 200 n.4, 201; United States v FuentesOyervides, 541 F.3d 286, 289 (5th Cir. 2008); United States v
Karam, 496 F.3d 1157, 1168 (10th Cir. 2007); Miles, 266 F.
App’x at 536. Section § 4B1.2(b) does not require a
particular mental state for distribution offenses, as it does for
possessing with intent to distribute: “The term ‘controlled
substance offense’ means an offense under federal or state
law . . . that prohibits the . . . distribution . . . of a controlled
substance.” U.S.S.G. § 4B1.2(b). Smith’s “state of mind”
argument thus has no bearing under this reading of §
2925.03(A)(2).
So whether § 2925.03(A)(2) describes
possession with an intent to distribute or distribution itself,
the conclusion is the same--§ 2925.03(A)(2) is a predicate
“controlled substance offense” for purposes of § 4B1.2(b).
3. Smith responds that this consistent reading of §
2925.03(A)(2) nonetheless must be reconsidered in light of
our recent decision in Havis. 927 F.3d at 384. True, as
Smith notes, our decisions addressing § 2925.03(A)(2) and
its relation to § 4B1.2(b) all pre-date Havis. And in Havis, we
reserved earlier decisions and held that § 4B1.2(b) does not
include attempt offenses. Id. at 387 (holding that because
the commentary adding attempt crimes to the Guidelines
contradicts the text of the Guidelines, commentary “deserves
no deference”). Seizing on that distinction, Smith asserts
K

that because § 2925.03(A)(2) also reaches the act of
“preparation,” by virtue of Havis that means that, at the very
least, part of the statue no longer qualifies as a predicate
offense under § 4B1.2(b).
Smith
argument
focuses
singularly
on
§
2925.03(A)(2)’s use of the term “prepare.” Noting language
in our Circuit’s pattern jury instructions that “[m]erely
preparing to commit a crime is not a substantial step” for the
purpose of attempt, Smith contends that “mere preparation”
must precede attempt. It follows, says Smith, that if attempt
is not a predicate offense under § 4B1.2(b), logically, “mere
preparation”—which is less than an attempt—cannot be a
predicate offense either.
Smith confuses the ordinary meaning of “prepare”
with its more specialized meaning in the common law of
attempt. In the context of § 2925.03(A)(2), to “prepare for
shipment” or to “prepare for distribution” means the
defendant was in the process of distributing drugs, for
example, having packed drugs in baggies to be sold.
See State v. Gies, ---N.E.3d---, 2019 WL 5208238, at *6
(Ohio Ct. App. Oct. 16, 2019)(holding that a bag of
methamphetamine along with “other large bags of narcotics
all simply packaged, . . . digital sale, … notebook listing the
price for a pound of methamphetamine that correlated with
the amount of cash (over $4,500) found on [the defendant]
during arrest, and stacks of additional empty baggies” was
sufficient evidence the defendant “prepared
the
amphetamine tablets with intent to sell them”), petition for
cert. filed, No. 19-8423 (U.S. Apr. 30, 2019); State v.
Renner, No. CA2002-08-033, 2003 WL 22887991 at *4
(Ohio Ct. App. Dec. 8, 2003) (holding that a defendant’s
possession of “five plastic bags, each containing
methamphetamine . . . along with other drugs and drug
paraphernalia” was sufficient evidence to support a
conviction for “prepar[ing] to deliver” drugs); State v.
Thompson, No. 13-17-26, 2018 WL 985966, at *17 (Ohio Ct.
App. Feb. 20, 2018) (collecting cases for the proposition that
the combination of drugs, large amounts of small
denomination currency, scales, and pinch baggies is
“indicative” that the defendant “was preparing . . . for
distribution”); See also State v. Collins, No. 95422, 2011 WL
4389539, at 3 (Ohio Ct. app. Sept. 21, 2011)(holding that
preparation of shipment in § 2925.03(A)(2) means more

L

than possession; the offender must “actually prepare[] drugs
for shipment, or ship[] a drug”).
By comparison, in the special contacts of the law of
attempt, it is a black-letter rule that “mere preparation” does
not satisfy the element of an “attempt” crime. Instead, a
defendant must take a “substantial step” toward the ultimate
crime. 22 C.J.S. Criminal Law: Substantive Principles § 159
(2020) (“To prove an attempt crime, the government must
show that a defendant took a substantial step towards
commission of the ultimate crime, and that step was more
than mere preparation.”). Yes, § 2925.03(A)(2) does prohibit
“prepar[ing] for distribution” and “prepar[ing] for shipment,” in
addition to the shipment, transport, delivery, or distribution of
controlled substances. But we have not read the term
“prepare” in § 2925.03(A)(2) to mean an incomplete attempt.
See Wright, 43 F. App’x at 853; Robinson, 333 F.App’s at
36. To the contrary,”prepar[ing] for shipment, ship[ping], [or]
transport[ing]” a control substance “intended for sale or
resale” is, at the very least, “no less than possession of a
controlled substance with intent to distribute it.” Wright, 43
F.App’x at 853 (alterations in original). While Wright was
decided without the benefit of Havis, 43 F. App’x at 853
(alterations in original). While Wright was decided without
the benefits of Havis, Smith offers no compelling reason why
we should read “prepare” in § 2925.03(A)(2) any differently
today.
Confirming this conclusion is the treatment afforded §
2925.03(A)(2) by Ohio courts. Those courts have read the
”prepare” provision as a supplement or alternative to
indictment for distributing controlled substances, as opposed
to conduct that is so attenuated from the completion of drug
trafficking that the conduct would not even be an attempt.
See State v Carpenter, 128 N.E. 3d 857, 874 (Ohio Ct. App.
2019) (collecting cases holding that the presence of illegal
drugs, along with plastic baggies, digital scales, and large
sums of money, supported defendant’s jury conviction for
having “knowingly prepared for shipment, shipped,
transported, delivered, prepared for distribution or distributed
the controlled substance”); State v. Gilcreast, No. 21533,
2003 WL 23094873, at *3 (Ohio Ct. App. Dec. 31, 2003)(“For
Defendant to be convicted of trafficking in drugs, the State
was required to prove that Defendant knowingly prepared for
shipment are prepared for distribution a controlled substance
. . . “). To the same end, Ohio courts have found that a
M

defendant convicted of violating § 2925.03(A)(2) has also
implicitly committed the lesser offense of possession, as the
offender must possess the controlled substance “to ship a
controlled substance, deliver it, distribute it, or prepare it for
shipping, etc.” State v. Walker, 135 N.E.3d 444, 458 (Ohio
Ct. App. 2019) (quoting Cabrales, 886 N.E.2d at 188). The
possession of a controlled substance, which is necessary for
a conviction for “preparing” to distribute, seems to our eye
even beyond the substantial step necessary for attempt, and
thus beyond the “mere preparation” meaning Smith assigns
to § 2925.03(A)(2). State v. Group, 781 N.E.2d 980, 995
(Ohio 2002) (explaining that “attempt” for the purposes of
Ohio law requires a substantial step). And it would be odd to
think that the Ohio General Assembly, in § 2925.03(A)(2),
prohibited “mere preparation” to trafficking drugs, as well as
the completed crime of drug trafficking, but not the step inbetween—attempt—which all seem to agree the statute
does not address. Cf. State v. Guzman, No. 02AP-1440,
2003 WL 22099257, at *6 (Ohio Ct. App. Sept. 11, 2003)
(holding that attempted possession and § 2925.03(A)(2) are
distinct crimes, because “[i]t is possible to attempt to
possess cocaine without preparing it for shipment, shipping,
transporting or delivering or preparing it for distribution or
distributing it”). Rather than follow Smith’s contorted
interpretation, we adhere to the ordinary interpretation given
the statute by the Ohio courts.
CONCLUSION
For these reasons, we AFFIRM the judgment of the
district court.

N

APPENDIX B

O

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3236

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DENNIS A. SMITH,
Defendant-Appellant.

Before BOGGS, GRIFFIN and READER, Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
For the Northern District of Ohio at Cleveland.
THIS CAUSE was heard on the record from the
district court and was submitted on the briefs without oral
argument.
IN CONSIDERATION THEREOF, it is ORDERED that
the judgment of the district court is AFFIRMED.
ENTERED BY ORDER OF THE COURT

________________________________
Deborah S. Hunt, Clerk

P

